U.S. Departmentof                                                                 Office of Inspector General
Transportation
Office of the Secretary
of Transportation




  July 3 1,2007


  The Honorable Patty Murray                        The Honorable John W. Olver
  Chairman                                          Chairman
  Subcommittee on Transportation,                   Subcommittee on Transportation,
  Housing and Urban Development, and                Housing and Urban Development, and
  Related Agencies                                  Related Agencies
  Committee on Appropriations                       Committee on Appropriations
  United States Senate                              United States House of Representatives
  Washington, DC 205 10                             Washington, DC 205 15

  The Honorable Christopher "Kit" Bond              The Honorable Joe Knollenberg
  Ranking Member                                    Ranking Member
  Subcommittee on Transportation,                   Subcommittee on Transportation,
  Housing and Urban Development, and                Housing and Urban Development, and
  Related Agencies                                  Related Agencies
  Committee on Appropriations                       Committee on Appropriations
  United States Senate                              United States House of Representatives
  Washington, DC 205 10                             Washington, DC 205 15

  Dear Chairmen Murray and Olver and Ranking Members Bond and Knollenberg:

  This report presents our third quarterly assessment' of Amtrak's fiscal year
  (W)2007 operational reforms savings2 and year-to-date financial performance.
  Amtrak is likely to realize $45.6 million of the $61 million in FY 2007 reform
  savings it originally anticipated and $224 million of the $550 million in FY 201 1
  reform savings it originally anticipated once the reforms are more fully
  implemented.

  Through May, Amtrak was $109 million ahead of its budget. It is likely to end the
  year with a cash operating loss of approximately $390 million and a cash balance
  of nearly $300 million. This favorable financial performance reflects, in part, the

  '   Our previous quarterly reports on Arntrak's savings from operational reforms are available at
      www.oig.dot.aov.
  2
      Defined throughout as either net operating savings or a reduction in net operating losses.
                                                                                                         2

absence of a labor settlement. A settlement, while important to the operation of
Amtrak, would likely reduce, and may eliminate, the amount by which Amtrak is
ahead of its budget projections.

Summary

       • We increased our estimate of Amtrak’s FY 2007 reform savings since our
         May report by $6.5 million to $45.6 million to reflect new operational
         reforms that were not previously reported on and improved performance on
         other initiatives. As we reported in May, Amtrak will not realize
         $21.9 million of its proposed $61 million in savings from FY 2007
         operational reforms because it canceled its sleeper car right-sizing and
         reservation call center initiatives.

       • We certify that Amtrak achieved $26.4 million in operational reform
         savings through April 2007.3 Of these savings, $21.9 million, or
         83 percent, came from food and beverage service reforms and reforms to
         improve Acela revenues. The remaining $4.5 million came primarily from
         reduced headcount in stations and lower overhead expenses.

       • Amtrak’s operating loss through May 2007 was $269 million, $109 million
         better than planned. Amtrak underestimated its Acela revenues and
         overestimated its personnel, fuel, power, and utilities costs in its budget.
         Also, the labor settlement costs Amtrak included in its budget have not yet
         been incurred.

       • Amtrak’s cash operating loss for all of FY 2007 is likely to be less than
         $390 million, the lowest level since FY 1998. This projected loss would
         increase if a labor settlement is reached.

       • Amtrak’s year-end cash balance is likely to be over $300 million,
         significantly higher than the $103 million projected in February, assuming
         no payout in FY 2007 as a result of a labor settlement.

Amtrak’s Financial Performance Through May Exceeds Projections

This section provides the results of our review of Amtrak’s year-to-date financial
performance through May.



3
    Amtrak provided data at the operational reforms level through April 2007 while it provided overall
    financial data through May 2007.


CC-2007-059
                                                                                                                                                   3

Corporate Level Results. Through May 2007, Amtrak’s operating loss was
$269 million, $109 million lower than projected in its $485 million FY 2007
operating budget and $141 million favorable to our FY 2007 $550 million baseline
budget (see Figure 1). The baseline budget is our estimate, included in our
January report, of the total amount of Federal subsidy and savings Amtrak requires
to make ends meet in FY 2007. By comparison, Amtrak estimated it needed
$565 million in Federal subsidy and savings to cover its projected FY 2007
operating shortfall.

                                                Figure 1. Amtrak Operating Loss
                                               FY 2007 – Year to Date through May

                           Oct        Nov      Dec        Jan        Feb         Mar          Apr       May         Jun     Jul    Aug     Sep
                      0
                              (23)
                                        (50)
                           (45)                   (80)

                                     (85)                   (147)
                                                                      (178)
                                               (140)                                 (207)
                   (200)
                                                                                                (240)
   $ in millions




                                                         (210)
                                                                                                           (269)

                                                                    (272)
                                                                                                                   $141 million savings to date
                                                                                (325)

                   (400)                                                                     (367)
                                                                                                        (410)
                                                                                                                   (436)
                                                                                                                           (476)
                                              $485 million
                                                                                                                                   (515)
                                            Federal Subsidy
                                                                                                                                           (550)
                   (600)
                                                                            Actual              Baseline Budget




Amtrak’s financial performance reflects $1.4 billion in operating revenues,
$36.9 million above the level projected in its budget. Amtrak significantly
underestimated in its FY 2007 budget the degree to which congestion and high
fuel costs would increase ridership and revenues, as well as the impact of
improved service on Acela, revenue management of the Regional service, and
better on-time performance on long-distance trains.

Amtrak’s operating expenses of $1.7 billion were $72.2 million below budget
projections but $42.9 million above last year’s expenses through May. Its
expenditures for salaries, wages, and benefits were $1.0 billion, $81.5 million
below projected levels and fuel costs were $186.1 million, $10.9 million below
projected levels. The lower salaries, wages and benefits expenditures primarily
reflect unfilled positions and the absence of a labor settlement ($60 million) and
safety improvements resulting in lower FELA costs ($12 million). Amtrak had

CC-2007-059
                                                                                     4

151 fewer filled positions in May 2007 than in May 2006. Decreases in labor-
related expenses were offset by $20.2 million in higher materials costs, food and
beverage costs, purchased power, and other expenses.

This improved revenues and decreased costs are likely to result in a FY 2007 cash
operating loss of approximately $390 million. This is $95 million below Amtrak’s
initial projected loss of $485 million and $43 million below its FY 2006 loss of
$433 million. The operating loss would increase if a labor settlement were
reached before the end of this fiscal year.

Amtrak’s FY 2007 cash balance may exceed $300 million, significantly above the
$103 million balance Amtrak projected in February. Since the February
projection, Amtrak increased its projected revenues by $24 million and lowered its
projected expenses by $36 million and debt service costs by $11 million. This
projected cash balance also assumes that a labor settlement requiring a payout in
FY 2007 will not occur in the next 2 months.

Business Line Results. As shown in Table 1, the Northeast Corridor (NEC)
accounted for more than half of the $109 million improvement relative to budget
projections through May 2007. NEC operating revenues were $199.5 million,
$40.1 million above budget projections, as ridership continued to be strong.
Ticket revenue from Acela service was nearly $39 million above budget
projections. About $17 million of this was due to Amtrak’s planned initiatives,
faster trip times between New York and Washington, DC, and a late January 2007
Acela fare increase. The remaining $22 million revenue increase was due to
favorable market conditions not under Amtrak’s control. NEC expenses were
$16.6 million below budget projections, as a result of $30.2 million in lower
wages and benefits attributable to lower headcount and the absence of a labor
settlement, and $8.2 million in lower costs from train operations and advertising.
These savings were offset by $16.6 million in higher materials costs.

Revenues from Amtrak’s Regional service were $2 million higher than expected
and are attributed to stronger performance north of New York due to better
revenue management (increasing the number of lower-priced seats and better
reflecting customer price sensitivities).




CC-2007-059
                                                                                                          5


 Table 1. Amtrak Net Profit/(Loss), Excluding Federal Operating Subsidies*
               FY 2007 – Year to Date through May ($ in Millions)
                                                                                        Actual vs.
 Business Line                                         Actual           Budget
                                                                                         Budget
 National Train System Operations                    ($144.0)         ($240.8)              $96.7
  Northeast Corridor                                   $199.5           $141.0              $58.5
  State Supported and Other Corridors                 ($62.6)          ($41.6)            ($21.0)
  Long-Distance Service                              ($280.9)         ($340.2)              $59.2
 Infrastructure Management                             ($39.1)          ($35.6)              ($3.5)
 Ancillary Business                                      $61.0            $49.9              $11.1
 Unallocated System                                  ($147.1)         ($151.7)                 $4.7
  Total                                              ($269.2)         ($378.2)              $109.0
* Amtrak reports these financials on an earnings before interest, taxes, depreciation, and OPEBs (other
  post-employment benefits) basis.

State-supported and other corridors lost $62.6 million through May, $20.9 million
more than expected and $0.8 million more than this time last year. Passenger
revenues were $13.7 million below budget projections, although $30.2 million
higher than last year. Amtrak attributes the shortfall in budgeted revenues to
several factors: (1) overly aggressive assumptions about additional ridership from
new and increased services; (2) continued poor on-time performance in many of
the corridors, and (3) steep fare increases implemented in October 2006, which
contributed to a 2.2 percent decline below budgeted ridership. Operating expenses
were $7.3 million higher than projected, mostly due to higher-than-expected
employee benefits and materials costs.

Long-distance services lost $281 million, $59.2 million less than expected and
$21.7 million less than through May last year. This resulted from $5.5 million in
higher than projected passenger revenues and $54.2 million in lower than expected
expenses. The modest revenue increases is due to the mid-October 2006 fare
increases and higher than projected ridership. However, the planned April fare
increases were not implemented because Amtrak was concerned that they would
weaken demand and lower revenues. Lower than expected expenses primarily
reflect an overestimate by Amtrak of lower salaries, wages, and benefits and
materials costs.

Progress Is Being Made on Some Reform Initiatives, but Overall
Savings Will Fall Short of Plans

Amtrak is on a path to realize $45.6 million of the $61 million in FY 2007
operational reform savings it originally anticipated. We increased the total


CC-2007-059
                                                                                                                 6

      projected FY 2007 reform savings by $6.5 million from our May report to reflect
      several ongoing initiatives Amtrak previously had not included in its savings
      estimates, and better than expected performance in food and beverage and Acela
      service quality initiatives.

      As we reported in May, the reduction in projected FY 2007 savings reflects
      Amtrak’s cancellation of the sleeper right-sizing and call center initiatives. These
      were projected to add $21.9 million in annual savings for FY 2007. Amtrak
      indicated the sleeper right-sizing initiative would not generate the savings
      originally projected, but has been unable to provide an analysis supporting that
      claim. The call center initiative was cancelled after an agreement was reached
      with labor that reduced costs.

      Through April, Amtrak achieved $26.4 million in savings compared to
      $29.6 million in planned savings. Over 80 percent of Amtrak’s savings continues
      to come from the Reduced Costs and Improve Service Quality Initiative. This
      primarily consists of revenue enhancements due to Acela service quality
      improvements and cost savings from redesigned food services and equipment (see
      Table 2). A more detailed breakdown on Amtrak’s savings to date from
      operational reforms can be found in Enclosure 1.

                  Table 2. Summary of FY 2007 Strategic Reform Initiatives
                     FY 2007 – Year to Date through April ($ in millions)

                                              Estimated         Actual YTD       Variance
Strategic Reform Initiative                  YTD Benefit         Benefit            +/-             Progress
Reduce Costs and Improve
Service Quality*                                     24.6             22.0           (2.5)        On schedule
Increase Sales and Distribution                                                                     Behind
Efficiencies                                           2.1              1.8          (0.3)         schedule
Enhance Reliability and Efficiency
of Mechanical Services                               (0.1)              0.3            0.4       On schedule
Improve Management Systems                                                                          Behind
and Overhead Efficiencies                              1.4              1.5            0.1         schedule
Achieve Ongoing Efficiencies                           2.2              0.7          (1.5)       On schedule
Optimize Network Services and                                                                       Behind
Use of Assets                                        (0.5)              0.0            0.5         schedule
Full Cost Recovery of Services                                                                   No reportable
and Assets                                             0.0              0.0            0.0         progress
                                                                                                 No reportable
Modernize Labor Contracts                             0.0              0.0             0.0         progress
 Total**                                             29.6             26.4           (3.2)
*We show budgeted benefits from sleeper right-sizing in this line item consistent with Amtrak’s original plan.
  Upon cancellation of the initiative, Amtrak reclassified it under the Optimize Network Services and Use of
  Assets line item for budget expense tracking purposes.
**Totals may not sum due to rounding


      CC-2007-059
                                                                                                              7


The following is a summary of Amtrak’s recent progress on its strategic reform
initiatives. Compared to our May assessment of the progress on individual
initiatives, two initiatives have fallen behind schedule and one remains behind
schedule. Of the remaining five initiatives three are still on schedule and there are
two for which no reportable progress has yet been made. Enclosure 2 provides
additional details on the actual and forecasted FY 2007 and 5-year savings from
these initiatives. Enclosure 3 provides more detail on progress to date on these
initiatives.

• Reduce Costs and Improve Quality of Passenger Services. Through April
  2007, Amtrak achieved $21.9 million in operating savings from this initiative.
  Food and beverage service accounted for $10.4 million in savings, mainly from
  the redesigned food service or Simplified Dining.4 Simplified Dining was
  $1.9 million or 22 percent favorable to budget projections through April.

      The Acela service improvement program accounted for the remaining
      $11.5 million in savings.5 On-time performance contributed an estimated
      $2.2 million to Acela revenues, a 5-minute trip time improvement on the Acela
      south end contributed an estimated $5.4 million, a 15th Acela trainset added in
      October 2006 contributed an estimated $3.9 million. Amtrak added a 16th
      train Acela trainset in July 2007, which is expected to add $3.0 million in
      revenues next year. This initiative is on schedule.

• Increase Sales and Distribution Efficiencies. Through April 2007, Amtrak
  achieved $1.7 million in operating savings in station efficiencies from the
  installation of Quik Trak ticket machines and $0.1 million in new international
  sales through Amtrak’s recently launched Customized Access website. Quik
  Trak machines will give customers the ability to buy tickets at stations rather
  than on the trains and will reduce the need for ticket agents at stations. While
  the deployment of the Quik Trak machines is on schedule, other projects in this
  initiative are behind schedule.

• Enhance Reliability and Efficiency of Mechanical Services and Materials
  Management. Amtrak achieved $0.3 million in cost savings from this
  initiative through April. Amtrak continues to accrue savings ($2.2 million
  through April) from the consolidation of the New Orleans locomotive
4
    Simplified Dining is Amtrak’s redesigned food service that primarily relies on fully prepared food
    products that require only on-board heating in a convection or microwave oven, eliminating the need for
    an on-board chef and server. This initiative has resulted in the elimination of 200 on-board food and
    beverage positions.
5
    The savings associated with Acela improvements are estimated based on a percentage of total Acela
    revenue improvement since it is not possible to measure directly the increased revenues from these
    specific initiatives. The estimates are based on Amtrak’s ridership and revenue models of the NEC.


CC-2007-059
                                                                                      8

   maintenance facility into its Chicago facility and the elimination of
   37 positions. These savings were offset by $1.9 million in consulting costs
   incurred related to designing and implementing the Reliability Centered
   Maintenance (RCM) program.

   Amtrak has begun implementing the RCM Continuous Maintenance process
   for certain Acela maintenance requirements. This process results in less time
   out of service for equipment by replacing the quarterly maintenance cycle with
   daily overnight maintenance activities. Amtrak expects RCM will enable a
   17th Acela trainset to enter into service in early FY 2008. The RCM program
   and Facilities Efficiencies subinitiatives are on schedule. The locomotive
   maintenance outsourcing subinitiative is on hold pending negotiations with
   potential vendors.

• Improve Management Systems and Overhead Efficiencies. Through April,
  Amtrak achieved $1.5 million in savings from ongoing efforts to reduce
  overhead costs, including utility management savings, reduce bank services
  and fees, pension plan administrative costs, administrative fees related to
  medical benefits, and savings resulting from the installation of on-board credit
  card terminals. The Improve Management Systems subinitiative is behind
  schedule and the Overhead Efficiencies subinitiative is on schedule.

• Achieve Ongoing Efficiencies. Through April, Amtrak achieved $0.7 million
  in savings as a result of a targeted 4-percent productivity gain from Amtrak’s
  engineering workforce. Net benefits from this initiative are below Amtrak’s
  target goal of $2.2 million due to increased overtime costs which have risen
  due to falling headcount. Amtrak has been working since December to reduce
  overtime by adding manpower. This initiative is on schedule.

• Optimize Network Services and Use of Assets. Amtrak continues to advance
  state corridor development efforts and work toward implementing state
  competition pilots in Maine, California, and Vermont. The contract with
  Vermont, which had been delayed in the Vermont Legislature, has been signed
  and the other two are under development. This part of this initiative is behind
  schedule. The long distance restructuring effort is significantly behind
  schedule and no savings are expected in FY 2007.

   As part of the asset utilization subinitiative, the Northeast Corridor
   Infrastructure Advisory Council met for the first time in mid-June. The
   Council, comprised of Amtrak and state officials, plans to meet quarterly to
   develop an NEC master plan that addresses the bridges, tunnels, and other
   major legacy projects. The asset utilization subinitiative is on schedule but no
   savings are expected in FY 2007.



CC-2007-059
                                                                                       9

• Full Cost Recovery of Services and Assets. This initiative seeks to recoup
  fully allocated losses from states for corridor services and for commuter
  service on the NEC. To date, Amtrak has been unsuccessful in convincing
  states to increase their payments for these services. Consequently, Amtrak
  expects to have to cover $150 million in operating losses on behalf of states in
  FY 2008. There is no reportable progress for this initiative.

• Modernize Labor Contracts. This initiative is aimed at reducing unit costs
  and increasing job flexibility by negotiating new labor agreements that will
  eliminate certain work rule and outsourcing restrictions and to align wages
  based on market demand. Labor negotiations are ongoing. There is no
  reportable progress for this initiative.

Conclusion

Amtrak continues to make progress on several of its strategic reforms, notably in
improved Acela service and in food and beverage service. At the same time, it has
made little or no progress or fallen behind schedule on others. In addition,
Amtrak’s financial performance this year hinges on the timing of a labor
settlement. As we previously reported, the cost of a settlement likely will exceed
significantly the amount Amtrak originally budgeted for it. In addition, a
settlement will occur later than Amtrak anticipated in its budget. Therefore,
Amtrak’s financial performance through May appears better than it otherwise
would because the increased settlement costs have been pushed into the future.
Nevertheless, reaching a labor settlement is important to Amtrak’s stability and its
ability to move ahead on several reform initiatives.

Under separate cover, we are transmitting copies of this letter to the Secretary of
Transportation and the Chairman of Amtrak’s Board of Directors. If you have any
questions concerning this letter, please call me at (202) 366-1959 or David
Tornquist, Assistant Inspector General for Competition and Economic Analysis, at
(202) 366-9970.

Sincerely,



Calvin L. Scovel III
Inspector General

Enclosures




CC-2007-059
                                                                                             Enclosure 1


                          Table 3. Summary of Amtrak Savings
                    FY 2007 – Year to Date through April ($ in millions)
                                                                       Revised
                                                                      Estimated        Actual
             Amtrak Net Operating Savings*
                                                                         YTD            YTD         Variance
                                                                       Benefit         Benefit         +/-
Strategic Reform Initiatives
1. Reduce Costs and Improve Services Quality                               24.6          22.0          (2.5)
Service Quality                                                             5.6          11.5            5.9
    Improve NEC Acela service                                               5.6          11.5            5.9
Food and Beverage Services                                                 10.8          10.4          (0.4)
Sleeper Right-Sizing                                                        8.1           0.1          (8.0)
2. Increase Sales and Distribution Efficiencies                             2.1           1.8          (0.3)
Station Efficiencies                                                        1.2           1.7            0.5
Call Center Operations                                                      0.9           0.0          (0.9)
E-Ticketing                                                                 0.0           0.1            0.1
3. Enhance Reliability and Efficiency of Mechanical
   Services                                                               (0.1)            0.3           0.5
Reliability Centered Maintenance                                          (1.6)          (1.9)         (0.2)
Facilities Efficiencies                                                     1.5            2.2           0.7
     Develop outsourcing plan for locomotive service                        0.0            0.0           0.0
     Facility consolidation                                                 1.5            2.2           0.7
4. Improve Management Systems and Overhead
   Efficiencies                                                             1.4           1.5            0.1
Management Information Systems                                            (0.5)           0.0            0.5
Overhead Costs                                                              1.9           1.5          (0.4)
    Reduce fuel and power                                                   0.3           0.3            0.0
    Other overhead                                                          1.0           0.3          (0.7)
    Install on-board credit card terminals                                  0.7           0.9            0.3
5. Achieve Ongoing Efficiencies                                             2.2           0.7          (1.4)
   Engineering                                                              2.2           0.7          (1.4)
6. Optimize Network Services and Use of Assets                            (0.5)           0.0            0.5
Routes and Services                                                       (0.2)           0.0            0.2
    NEC                                                                   (0.2)           0.0            0.2
    Long Distance                                                         (0.1)           0.0            0.1
Fleet                                                                     (0.1)           0.0            0.1
Infrastructure                                                            (0.2)           0.0            0.2
  Total**                                                                 29.6           26.4          (3.2)
Source: Amtrak Finance and Planning Departments
* We included $3.9 million in savings from the 15th Acela train set in Amtrak’s Service Quality subinitiative
  and excluded a $2 million one-time payment for Co-Branded Credit Card Program.
** Totals may not sum due to rounding.




  CC-2007-0059
                                                                                       Enclosure 2
                                                                                        Page 1 of 3


                Table 4. Amtrak’s Proposed Operational Reforms ($ in millions)
                                                                   FY 2007 Targeted     Estimated 5-Year
                                                                       Savings*             Savings
  Strategic Reform Initiative
                                           Objective                                             Revised
        and Program
                                                                   Original    FY2007              April
                                                                   FY 2007    Forecast Original    2007
 1. Reduce Costs and Improve Service Quality
                                  Focus management
                                  attention and drive
                                  accountability for train
 Service Quality                  service performance,              $9.4       $19.5
                                  including on-board service
                                  quality and on-time
                                  performance.
                                  Enhance service flexibility by
                                  redesigning food services                               $95         $71
                                  (for example, fully prepared
 Food and Beverage Services                                         $19.4      $17.4
                                  meals, multi-purpose food
                                  service cars), improving
                                  equipment, and outsourcing.
                                  Improve net operating
 Long Distance Product
                                  performance of sleeper            $19.7       $0
 Development
                                  service.
 2. Increase Sales and Distribution Efficiencies

                                    Deploy more efficient
 Station Efficiencies               communications and              $2.7       $2.7
                                    sales/distribution equipment
                                    and processes at stations.
                                    Develop enterprise systems
 E-ticketing                        and processes for E-            $1.7       $0.6
                                    ticketing.
                                    Build infrastructure to
                                    facilitate customer
 E-Commerce                                                          $0         $0        $41         $32
                                    relationships and generate
                                    incremental revenue.
                                    Develop pricing mechanisms
 Pricing                            for responding to market         $0         $0
                                    conditions.
                                    Improve cost-effectiveness
                                    of call center operations
 Call Center Operations             through improved                $0.5        $0
                                    tools/processes and reduced
                                    labor costs.
Source: Amtrak Strategic Planning Department




       CC-2007-059
                                                                                       Enclosure 2
                                                                                        Page 2 of 3

           Table 4. Amtrak’s Proposed Operational Reforms ($ in millions) (cont.)
                                                                   FY 2007 Targeted     Estimated 5-Year
                                                                       Savings               Savings
 Strategic Reform Initiative
                                           Objective                                              Revised
       and Program
                                                           Original         FY 2007     Original   April
                                                           FY 2007          Forecast    FY 2007    2007
3. Enhance Reliability and Efficiency of Mechanical Services
                            Implement RCM to reduce
                            cycle time and increase
Reliability Centered
                            equipment reliability and        $(2.8)          $(3.4)
Maintenance (RCM)
                            availability. Costs represent
                            consultant fees.
                            Implement WMS in
                            Mechanical Department to
Work Management System
                            enable management                  $0             $0
(WMS)
                            accountability and
                            effectiveness.
                            Improve Mechanical
Mechanical Productivity and Department productivity and
                                                               $0             $0          $75         $74
Quality                     quality through improved
                            metrics and monitoring.
                                Optimize facility utilization by
                                developing an outsourcing/
Facilities Efficiencies         insourcing strategy and             $2.9      $2.9
                                consolidating and redesigning
                                facilities.

                                Improve efficiency of materials
Materials Management            management through new              $0        $0
                                processes and tools.


4. Improve Management Systems and Overhead Efficiencies
                                 Modernize management
                                 information systems to
 Management Information          improve accuracy, timeliness,
                                                                   $(0.8)     $0
 System                          and consistency of data and
                                 processes across the
                                 company.
                                                                                          $36         $37
                                 Reduce overhead costs
                                 through better allocation,
                                 improved administrative and
 Overhead Costs                                                     $4.5      $3.7
                                 support function efficiency,
                                 and reduced cash handling
                                 and transaction costs.
Source: Amtrak Planning Department




        CC-2007-059
                                                                                       Enclosure 2
                                                                                        Page 3 of 3


           Table 4. Amtrak’s Proposed Operational Reforms ($ in millions) (cont.)
                                                                 FY 2007 Targeted       Estimated 5-Year
                                                                     Savings                 Savings
      Strategic Reform
                                           Objective                                              Revised
  Initiative and Program
                                                                 Original   FY 2007     Original   April
                                                                 FY 2007    Forecast    FY 2007    2007
5. Achieve Ongoing Efficiencies
                               Improve cost-effectiveness of
                               train operations through better
Train Operations                                                   $0         $0
                               labor and crew utilization and
                               resource allocation.
                               Increase productivity of
                               engineering workforce through
                               implementation of engineering                               $8          $10
Engineering Efficiencies                                          $3.7        $2.2
                               asset management and
                               improved work management
                               processes.
                               Reduce FRA reportable
Safety                                                             $0         $0
                               illnesses/ injuries rate.

6. Optimize Network Services and Use of Assets
                         Improve alignment of NEC,
                         corridor, and long-distance
Routes and Services                                               $0.6        $0          $92          $91
                         routes and services with
                         market demand.
                         Improve fleet and infrastructure
                         utilization through new service
Asset Utilization        planning tools/processes and a           $(0.5)      $0
                         collaborative infrastructure
                         planning process.
7. Ensure Full Cost Recovery of Services and Assets
                               Improve cost recovery from
State Corridors                                                    $0         $0                 TBD
                               states for corridor services

                               Improve cost recovery from
NEC Access                                                         $0         $0                 TBD
                               users of the NEC

                               Improve cost recovery for long-
Long-Distance Network                                              $0         $0                 TBD
                               distance network

8. Modernize Labor Agreements
                               Negotiate new labor
Labor Contracts                agreements that increase            $0         $0                 TBD
                               workforce flexibility
Total                                                             $61.0      $45.6        $347         $315
Source: Amtrak Strategic Planning Department




         CC-2007-059
                                                                     Enclosure 3
                                                                      Page 1 of 6

          Progress on Amtrak’s Strategic Reform Initiatives

Reduce Costs and Improve Quality of Passenger Services

This initiative focuses on revenue improvements, cost savings, and customer
service improvements in two areas: (1) service quality and (2) food and beverage
(F&B). As previously reported, Amtrak canceled the sleeper right-sizing initiative
which had been the third area of improvement under this initiative.

The service quality component consists of placing Service Managers onboard
long-distance trains, implementing the NEC Acela service improvement plan,
improving on-time performance, reducing trip times, and developing new
customer service and measurement tools to improve performance. Amtrak
projects that $19.5 million in savings this year will come from increased Acela
ticket revenues from this subinitiative. Acela on-time performance has improved
to 88.2 percent in May 2007, compared to 84.6 percent in May last year. Amtrak
reduced Acela’s scheduled trip time on the south end by 5 minutes because of
improved reliability. In addition, Amtrak added a 15th Acela trainset in October
2006 and a 16th in July 2007, as a result of maintenance efficiencies achieved
through its Reliability Centered Maintenance (RCM) program.

Amtrak continues to work toward improving long-distance and state corridor on-
time performance and has been working on ways to tie host railroad capital
investments to Amtrak’s on-time performance. Also, the on-time performance
assessment of Cascades service continues, as well as developing potential
solutions in conjunction with Washington State Department of Transportation and
BNSF.

Amtrak recently announced a new partnership with GrandLuxe Rail Journeys and
plans to roll out luxury service this fall. The new GrandLuxe Limited service will
be available between Chicago and the San Francisco Bay area, Chicago and Los
Angeles, and Washington and Miami. Limited trips are also scheduled between
Washington and Chicago, from Denver to San Francisco, Denver and Chicago,
and Chicago and Albuquerque. Seven special GrandLuxe cars will be attached to
regularly scheduled Amtrak trains. More than 90 departures are scheduled from
November 2007 to early January 2008. Ticket prices for the GrandLuxe Limited
will range from $789 to $2,499.

Under the F&B equipment design initiative, the first production model of the
Superliner Diner Lounge car is expected to be completed in early August. A
converted Amfleet II Lounge car began service on the Cardinal in April. Also,
Diner Lite menus were developed and implemented for the modified Amfleet II


CC-2007-059
                                                                        Enclosure 3
                                                                         Page 2 of 6

equipment. Amtrak will be developing service standards for the Diner Lite cars
in the event these cars replace single level diners on other routes.

Through April 2007, total actual benefits for this initiative were $22.0 million
compared to budgeted benefits of $24.6 million. Amtrak’s year-end projections
have been revised downward to $36.9 million, as compared to budgeted benefits
of $48.5 million.

Increase Sales and Distribution Efficiencies

This initiative aims to deliver increased revenues and distribution efficiencies
throughout Amtrak’s sales channels. Programs under this initiative include:
(1) deployment of more efficient communications and sales/distribution equipment
and processes in stations, (2) development and implementation of E-ticketing
capabilities, (3) building of infrastructure to facilitate customer relationships and
generate incremental revenue, and (4) development of pricing mechanisms to
enable fast responses to market conditions. As previously discussed, Amtrak
dropped the call center subinitiative that was originally part of this initiative.

The majority of the savings from station efficiencies are expected to come from
reduced headcount requirements due to the installation of Quik Trak machines and
the resultant decrease in ticket agents at stations. A total of 63 positions will be
eliminated through attrition or furlough. Amtrak estimates a total of $2.7 million
in FY 2007 savings from this subinitiative.

The remaining programs under this initiative are, for the most part, in the design
and planning stages. For the E-ticketing subinitiative, the technical architecture of
the new E-ticketing database has been approved. Software development for the E-
ticketing database is expected to begin this quarter and will likely be completed by
the fourth quarter of FY 2008 at which time travelers and travel agents will be able
to create E-tickets by using Amtrak’s website. Reduced credit card fee benefits
will begin to accrue by July 31, 2008. The transition from paper tickets will
continue through FY 2009.

Amtrak has had some revenue impact in the area of new international sales
($0.1 million) from its newly launched E-ticketing Customized Access website.
Difficulty in hiring staffing to manage the Customized Access program and delays
in selecting a vendor for the Capitol Corridor Joint Powers Authority E-ticketing
handheld pilot program has resulted in this subinitiative being behind schedule.
As a result, estimated annual savings has been lowered from $1.7 million to
$0.6 million.



CC-2007-059
                                                                       Enclosure 3
                                                                        Page 3 of 6

Development on Amtrak’s E-Commerce subinitiative is on schedule. This
program is intended to: (1) integrate Amtrak’s Guest Rewards program,
(2) develop and implement improved internet reservation capabilities, and
(3) develop a centralized customer database. No savings are expected in FY 2007.

Amtrak’s Pricing subinitiative seeks to improve its capability to set prices in
response to changing market conditions. Amtrak has had difficulty in procuring
the specialized consulting resources necessary and has delayed the program. No
savings are expected in FY 2007.

Through April 2007, total benefits for this initiative were $1.8 million compared
with budgeted benefits of $2.1 million. The initiative is below budget estimates
because of the elimination of the call center outsourcing subinitiative and the late
start of the E-ticketing program. Amtrak expects $3.3 million in annual savings,
$1.6 million below the $4.9 million originally projected.

Enhance Reliability and Efficiency of Mechanical Services and Materials
Management

This initiative focuses on improving reliability and efficiency of mechanical
services and materials management. The key components include implementing
RCM, continued implementation of the Work Management System (WMS),
increasing Mechanical Productivity and Quality, and Facilities Efficiencies.

RCM is Amtrak’s program to reduce the time trains and locomotives spend out-of-
service due to maintenance and to increase equipment reliability and availability.
RCM is being applied to Acela equipment and is in the planning stage for HHP-8
and AEM-7 locomotives. Amtrak is also preparing for AEM-7 locomotive
Maintenance Effectiveness Review (MERs). The methodology enabled adding a
15th Acela trainset into service in October 2006, a 16th trainset into revenue
service in July, and a 17th trainset into expected service in FY 2008. The
revenues associated with additional Acela trainsets are included in the Service
Quality initiative.

The WMS project is Amtrak’s comprehensive planning and assessment tool for
maintaining Amtrak’s rolling stock. The software is a commercial-off-the-shelf
(COTS) product that is designed to manage mobile assets in a transportation
environment. It directly supports the implementation of RCM and productivity
improvements by capturing unit cost data and managing all regulatory compliance
and scheduling requirements for Amtrak’s rolling stock. WMS has fallen behind
schedule since our May report. The network infrastructure upgrades required for
the Mechanics Workbench and other key functionality has been delayed due to


CC-2007-059
                                                                       Enclosure 3
                                                                        Page 4 of 6

Amtrak Technology Department and vendor constraints. This will continue to
delay the deployment of the application to the shop floor. Procurement activities
related to infrastructure has also contributed to these delays.

Amtrak’s Mechanical Productivity and Quality program is intended to create a
Quality Management System (QMS) including the development of metrics that
will enable better mechanical performance management. Amtrak is developing a
master work plan and performance metrics.

Amtrak has made progress under its Facilities Efficiencies program that has
resulted in completing the concrete, mechanical, and electrical work in Amtrak’s
Chicago facility. The Chicago facility is being upgraded to accommodate new
maintenance practices and centralize the maintenance of all P-42 locomotives.
Savings from reduced headcount resulting from the consolidation of maintenance
activities continue to accrue. Amtrak projects $2.9 million in savings from facility
efficiencies in FY 2007.

Improve Management Systems and Overhead Efficiencies

This initiative addresses the modernization of (1) management information
systems to improve accuracy, timeliness, and consistency of data and (2) financial
processes across the company. It also seeks to reduce overhead costs, improve
administrative efficiency, and reduce cash handling and transaction costs.

Key projects under information systems are the Route Profitability System (RPS)
Improvements, Amtrak Performance Tracking (APT) system, and Integrated
Financial Systems (IFS). APT is a critical financial infrastructure project designed
to ensure Amtrak’s ability to meet Federal reporting requirements and improve
management information by train and route. Delays in contract procurement have
delayed implementation of APT and RPS. The Financial Analysis and Financial
Systems Departments continue to define activities and allocation rules for the APT
System. Amtrak has placed its IFS project on hold since our May report.
Amtrak’s Executive Committee decided to re-examine the schedule and possibly
expand the project scope to include the work management system. Amtrak’s goal
is to complete the strategy development by August 2007, potentially impacting
scope and timing for related programs. While development of these projects
continues, no savings for them were budgeted for FY 2007.

Initiatives to reduce overhead include: (1) reducing credit card processing costs,
(2) reducing bank services and fees, and (3) installing on-board credit card
terminals. Amtrak signed co-brand credit card contracts with JP Morgan Chase
and MasterCard for a period of 7 years with expected benefits estimated at almost


CC-2007-059
                                                                     Enclosure 3
                                                                      Page 5 of 6

$80 million. The product is scheduled to launch in September 2007. The
Universal Air Travel Plan (UATP) portion of the project is behind schedule
because Amtrak delayed allocating resources to it to better define business
requirements.

The installation of on-board credit card terminals is on schedule and has been
implemented on all trains. Benefits nearing $500,000 in reduced fraud for food
and beverage sales are expected. The project to reduce bank services and fees is
ongoing and on schedule.

Through April 2007, actual overhead cost savings were $1.5 million compared to
the budget of $1.9 million. Amtrak estimates annual savings of $3.7 million from
all its overhead initiatives.

Achieve Ongoing Efficiencies

This initiative focuses on achieving ongoing efficiencies within the Operations
Branch. Targeted areas include Train Operations and Engineering Efficiencies.
Planned benefits include reducing train fuel consumption, increasing productivity
of the engineering workforce, and reducing the Federal Railroad Administration
(FRA) reportable illnesses/injuries rate.

Train Operations projects in this area include: a train fuel conservation program,
creation of a portable locomotive simulator and subsequent training of locomotive
engineers to improve train handling techniques. Projected benefits are not
expected until FY 2008. The fuel conservation program continues to be on hold
pending the acquisition of required locomotive testing equipment and the hiring of
a project manager. Amtrak anticipates a September delivery of the equipment and
have begun seeking a project manager. Savings are not expected to accrue before
January 2008.

The Engineering Efficiency program is designed to increase the productivity of the
engineering workforce through the implementation of Engineering Enterprise
Asset Management (EAM) and improved work management processes. The key
project, EAM is on schedule. Amtrak has completed the pilot phase of the
program at its Perryville subdivision and has begun implementation in the
Washington and Baltimore subdivisions.

Savings from this initiative will accrue from reductions in core wages and
associated overtime in Amtrak’s Engineering Division. As mentioned earlier,
increasing overtime costs have resulted in savings estimates being revised
downward from $3.7 million to $2.2 million.


CC-2007-059
                                                                       Enclosure 3
                                                                        Page 6 of 6


Optimize Network Services and Use of Assets

The objectives of this initiative are to: (1) improve the alignment of NEC, corridor
and long-distance routes and services with market demand and (2) improve fleet
and infrastructure utilization through new service planning tools/processes and a
collaborative infrastructure planning process.

Amtrak has developed a preliminary FY 2008-2012 fleet plan schedule and is
working with the Mechanical, Transportation, and Marketing and Product
Management departments to develop revised food service car requirements.
Amtrak is developing the NEC Master Plan for the FY 2012 NEC Strategic Plan.
No benefits are expected in FY 2007 from this initiative.

Ensuring Full Cost Recovery of Services and Assets

This initiative is expected to improve cost recovery from states for corridor
services and from commuters on the NEC by increasing the financial contribution
from these users. It also calls for establishing multi-year grant agreements with
the FRA on the long-distance network. Because this initiative is in the planning
stage, no savings are expected in FY 2007.

Modernizing Labor Agreements

This initiative is aimed at reducing unit costs and increasing job flexibility by
negotiating new labor agreements that will eliminate certain work rule and
outsourcing restrictions. It also aims to align wages based on market demand. As
stated earlier, Amtrak is in negotiations with its labor unions.




CC-2007-059
                                                                                    508 Compliant Charts and Tables
                                                                                   Amtrak’s July 2007 Quarterly Report

                                                   Oct            Nov      Dec        Jan        Feb         Mar           Apr       May         Jun     Jul    Aug     Sep
                                              0           (23)
                                                                    (50)
                                                   (45)                       (80)

                                                                 (85)                   (147)
                                                                                                  (178)
                                                                           (140)                                 (207)
                                           (200)
                                                                                                                             (240)
                           $ in millions



                                                                                     (210)
                                                                                                                                        (269)

                                                                                                (272)
                                                                                                                                                $141 million savings to date
                                                                                                           (325)

                                           (400)                                                                          (367)
                                                                                                                                     (410)
                                                                                                                                                (436)
                                                                                                                                                        (476)
                                                                          $485 million
                                                                                                                                                                (515)
                                                                        Federal Subsidy
                                                                                                                                                                        (550)
                                           (600)
                                                                                                        Actual             Baseline Budget



Data Table for Figure 1.
 Months                Oct                          Nov                     Dec              Jan                   Feb                 Mar              Apr        May          Jun     Jul     Aug     Sep
 Actual                 (23)                                 (50)            (80)             (147)                 (178)              (207)            (240)      (269)          n/a    n/a     n/a      n/a
 Baseline
 Budget                  (45)                                (85)            (140)              (210)                    (272)          (325)           (367)      (410)        (436)   (476)   (515)   (550)
* Note: Amtrak Federal subsidy for FY2007 was $485 million

Through May 2007, Amtrak’s operating loss was $141 million favorable to the FY 2007 baseline budget of $550 million.
  Table 1. Amtrak Net Profit/(Loss), Excluding Federal Operating Subsidies*
                FY 2007 – Year to Date through May ($ in Millions)
                                                                                                       Actual vs.
                  Business Line                                 Actual             Budget
                                                                                                        Budget
    National Train System Operations                         ($144.0)            ($240.8)                $96.8
                  Northeast Corridor                          $199.5              $141.0                 $58.5
       State Supported and Other Corridors                    ($62.6)             ($41.7)               ($20.9)
                Long-Distance Service                        ($280.9)            ($340.2)                $59.2
         Infrastructure Management                            ($39.1)             ($35.6)               ($3.5)
                Ancillary Business                             $61.1               $49.9                 $11.1
              Unallocated System                             ($147.1)            ($151.7)                  4.7
                         Total                               ($269.2)            ($378.2)               $109.0
* Amtrak reports these financials on an earnings before interest, taxes, depreciation, and OPEBs (other post-employment benefits) basis.
             Table 2. Summary of FY 2007 Strategic Reform Initiatives
                FY 2007 – Year to date through April ($ in millions)
                                                   Actual
                                      Estimated     YTD      Variance
Strategic Reform Initiative          YTD Benefit   Benefit      +/-      Progress
Reduce Costs and Improve
Service Quality                            24.6      22.0        2.5    On schedule
Increase Sales and Distribution                                           Behind
Efficiencies                                2.1       1.8      (0.3)     schedule
Enhance Reliability and Efficiency
of Mechanical Services                    (0.1)       0.3        0.4    On schedule
Improve Management Systems                                                Behind
and Overhead Efficiencies                   1.4       1.5        0.1     schedule

Achieve Ongoing Efficiencies                2.2       0.7      (1.5)    On schedule
Optimize Network Services and                                              Behind
Use of Assets                             (0.5)       0.0      (0.5)      schedule
Full Cost Recovery of Services                                          No reportable
and Assets                                  0.0       0.0        0.0      progress
                                                                        No reportable
Modernize Labor Contracts                   0.0       0.0        0.0      progress
 Total                                     29.6      26.4      (3.2)         n/a
  Amtrak’s FY 2007 Savings from Strategic Reform Initiatives

                     Table 3. Summary of Amtrak Savings
               FY 2007 – Year to Date through April ($ in millions)
                                             Revised
    Amtrak Net Operating Savings            Estimated    Actual YTD   Variance
                                           YTD Benefit    Benefit        +/-
1. Reduce Costs and Improve Services
   Quality                                      24.6          22.0      (2.5)
Service Quality                                  5.6          11.5        5.9
    Improve NEC Acela service*                   5.6          11.5        5.9
Food and Beverage Services                      10.8          10.4      (0.4)
Sleeper Right-Sizing                             8.1           0.1      (8.0)
2. Increase Sales and Distribution
   Efficiencies                                  2.1           1.8      (0.3)
Station Efficiencies                             1.2           1.7        0.5
Call Center Operations                           0.9           0.0      (0.9)
E-Ticketing                                      0.0           0.1        0.1
3. Enhance Reliability and Efficiency of
   Mechanical Services                          (0.1)           0.3       0.5
Reliability Centered Maintenance                (1.6)         (1.9)     (0.2)
Facilities Efficiencies                           1.5           2.2       0.7
     Develop outsourcing plan for
     locomotive service                          0.0           0.0        0.0
     Facility consolidation                      1.5           2.2        0.7
4. Improve Management Systems and
   Overhead Efficiencies                          1.4          1.5        0.1
Management Information Systems                  (0.5)          0.0        0.5
Overhead Costs**                                  1.9          1.5      (0.4)
     Reduce fuel and power                        0.3          0.3        0.0
     Other overhead                               1.0          0.3      (0.7)
   Install on-board credit card terminals             0.7             0.9          0.3



                                                Revised
    Amtrak Net Operating Savings               Estimated       Actual YTD      Variance
                                              YTD Benefit       Benefit           +/-
5. Achieve Ongoing Efficiencies                      2.2            0.7           (1.4)
   Engineering                                       2.2            0.7           (1.4)
6. Optimize Network Services and Use
   of Assets                                         (0.5)            0.0          0.5
Routes and Services                                  (0.2)            0.0          0.2
   NEC                                               (0.2)            0.0          0.2
   Long Distance                                     (0.1)            0.0          0.1
Fleet                                                (0.1)            0.0          0.1
Infrastructure                                       (0.2)            0.0        (0.2)
 Total                                               29.6            26.4        (3.2)
  Source: Amtrak Strategic Planning Department
  *Includes improved trip time, OTP, and 15th train set.
  **Excludes $2 million one-time payment for co-Branded Credit Card Program.
                           Text Version for Table 4 – Amtrak’s Proposed Operational Reforms


                                      Strategic Reform Initiative and Program

Program 1
Reduce Costs and Improve Service Quality
   • Service Quality: Focus management attention and drive accountability for train service performance, including on-
     board service quality and on-time performance.

         • FY2007 Original Targeted Savings, $9.4 million
         • FY2007 Forecasted Savings, $19.5 million

   • Food and Beverage Services: Enhance service flexibility by redesigning food services (for example, fully prepared
     meals, multi-purpose food service cars), improving equipment, and outsourcing.

         • FY2007 Original Targeted Savings, $19.4 million
         • FY2007 Forecasted Savings, $17.4 million

   • Long Distance Product Development: Improve net operating performance of sleeper service.

         • FY2007 Original Targeted Savings, $19.7 million
         • FY2007 Forecasted Savings, $0 million

Original Estimated 5-year savings: $95 million
Revised April 2007 savings: $71 million
Program 2
Increase Sales and Distribution Efficiencies
   • Station Efficiencies: Deploy more efficient communications and sales/distribution equipment and processes at stations.

          • FY2007 Original Targeted Savings, $2.7 million
          • FY2007 Forecasted Savings, $2.7 million

   • E-ticketing: Develop enterprise systems and processes for e-ticketing.

          • FY2007 Original Targeted Savings, $1.7 million
          • FY2007 Forecasted Savings, $0.6 million

   • E-Commerce: Build infrastructure to facilitate customer relationships and generate incremental revenue.

          • FY2007 Original Targeted Savings, $0 million
          • FY2007 Forecasted Savings, $0 million

   • Pricing: Develop pricing mechanisms for responding to market conditions.

          • FY2007 Original Targeted Savings, $0 million
          • FY2007 Forecasted Savings, $0 million

   • Call Center Operations: Improve cost-effectiveness of call center operations through improved tools/processes and
     reduced labor costs.

          • FY2007 Original Targeted Savings, $0.5 million
          • FY2007 Forecasted Savings, $0 million
Original Estimated 5-year savings: $41 million
Revised April 2007 savings: $32 million
Program 3
Enhance Reliability and Efficiency of Mechanical Services
   • Reliability Centered Maintenance (RCM): Implement RCM to reduce cycle time and increase equipment reliability
     and availability. Costs represent consultant fees.

         • FY2007 Original Targeted Savings, $(2.8) million
         • FY2007 Forecasted Savings, $(3.4) million

   • Work Management System (WMS): Implement WMS in Mechanical Department to enable management accountability
     and effectiveness.

         • FY2007 Original Targeted Savings, $0 million
         • FY2007 Forecasted Savings, $0 million

   • Mechanical Productivity and Quality: Improve Mechanical Department productivity and quality through improved
     metrics and monitoring.

         • FY2007 Original Targeted Savings, $0 million
         • FY2007 Forecasted Savings, $0 million

   • Facilities Efficiencies: Optimize facility utilization by developing an outsourcing/insourcing strategy and
     consolidating and redesigning facilities.

         • FY2007 Original Targeted Savings, $2.9 million
         • FY2007 Forecasted Savings, $2.9 million
   • Materials Management: Improve efficiency of materials management through new processes and tools.

         • FY2007 Original Targeted Savings, $0 million
         • FY2007 Forecasted Savings, $0 million

Original Estimated 5-year savings: $75 million
Revised April 2007 savings: $74 million



Program 4
Improve Management Systems and Overhead Efficiencies

   • Management Information System: Modernize management information systems to improve accuracy, timeliness, and
     consistency of data and processes across the company.

         • FY2007 Original Targeted Savings, $(0.8) million
         • FY2007 Forecasted Savings, $0 million

   • Overhead Costs: Reduce overhead costs through better allocation, improved administrative and support function
     efficiency, and reduced cash handling and transaction costs.

         • FY2007 Original Targeted Savings, $4.5 million
         • FY2007 Forecasted Savings, $3.7 million

Original Estimated 5-year savings: $36 million
Revised April 2007 savings: $37 million
Program 5
Achieve Ongoing Efficiencies
   • Train Operations: Improve cost-effectiveness of train operations through better labor and crew utilization and
     resource allocation.

         • FY2007 Original Targeted Savings, $0 million
         • FY2007 Forecasted Savings, $0 million

   • Engineering Efficiencies: Increase productivity of engineering workforce through implementation of engineering
     asset management and improved work management processes.

         • FY2007 Original Targeted Savings, $3.7 million
         • FY2007 Forecasted Savings, $2.2 million

   • Safety: Reduce FRA reportable illnesses/injuries rate.

         • FY2007 Original Targeted Savings, $0 million
         • FY2007 Forecasted Savings, $0 million

Original Estimated 5-Year Savings: $8 million
Revised April 2007: $10 million
Program 6
Optimize Network Services and Use of Assets
   • Routes and Services: Improve alignment of NEC, corridor, and long-distance routes and services with market
      demand.

          • FY2007 Original Targeted Savings, $0.6 million
          • FY2007 Forecasted Savings, $0 million

   • Asset Utilization: Improve fleet and infrastructure utilization through new service planning tools/processes and a
     collaborative infrastructure planning process.

          • FY2007 Original Targeted Savings, $(0.5) million
          • FY2007 Forecasted Savings, $0 million

Original Estimated 5-Year Savings: $92 million
Revised April 2007: $91 million

Program 7
Ensure Full Cost Recovery of Services and Assets
   • State Corridors: Improve cost recovery from states for corridor services.

          • FY2007 Original Targeted Savings, $0 million
          • FY2007 Forecasted Savings, $0 million

   • NEC Access: Improve cost recovery from users of the NEC.

          • FY2007 Original Targeted Savings, $0 million
          • FY2007 Forecasted Savings, $0 million
   • Long Distance Network: Improve cost recovery for long-distance network.

         • FY2007 Original Targeted Savings, $0 million
         • FY2007 Forecasted Savings, $0 million

Estimated 5-Year savings to be determined.


Program 8
Modernize Labor Agreements
   • Labor Contracts: Negotiate new labor agreements that increase workforce flexibility.

         • FY2007 Original Targeted Savings, $0 million
         • FY2007 Forecasted Savings, $0 million

Estimated 5-Year savings to be determined.



Total (All Programs)

          • FY2007 Original Targeted Savings, $61 million
          • FY2007 Forecasted Savings, $45.6 million


Original Estimated 5-Year Savings: $347 million
Revised April 2007: $315 million
